EXHIBIT A

764

933 FEDERAL REPORTER, 3d SERIES

court to treat MEBA’s motion as one for
summary judgment. Fed. R. Civ. P. 12(d)
(‘‘If, on a motion under Rule 12(b)(6) or
12(c), matters outside the pleadings are
presented to and not excluded by the
court, the motion must be treated as one
for summary judgment under Rule 56. All
parties must be given a reasonable opportunity to present all the material that is
pertinent to the motion.’’). Granting such
discovery would have allowed Liberty to
attempt to substantiate, or MEBA to refute, the claim that the complete contractual record, when read as a whole, does
not require arbitration of this dispute.
[22] Despite MEBA’s claim that Liberty’s argument consists of ‘‘smoke and mirrors,’’ MEBA has not shown that Liberty
lacks a good faith basis for its appeal.
Parties are presumed to have a good faith
basis for denying allegations, even at the
pleading stage. See Amnesty Am. v. Town
of W. Hartford, 361 F.3d 113, 131 (2d Cir.
2004) (‘‘Because attorneys, as officers of
the court, are presumed not to offer in
opposition’’ to dispositive motions ‘‘evidence that they have no good faith basis to
believe will be available or admissible at
trial, the burden is on the moving party.’’).
For the reasons stated above and in light
of the incomplete contractual record, we
assume there was a good faith basis for
Liberty to challenge judgment on MEBA’s
pleadings. We expect the parties, on remand, will act in good faith to narrow their
dispute and avoid burying the district
court with reams of contractual provisions
not arguably relevant to the arbitrability
issue in this case.
* * *
This case involved disputed issues of
material fact that rendered the unusual
remedy of judgment on the pleadings inappropriate. Because the district court
should have first determined whether Liberty and MEBA had a valid contract for

arbitration by looking at their whole
agreement, we reverse the judgment on
the pleadings and remand the case for
further proceedings consistent with this
opinion.
So ordered.

,
CHILDREN’S HOSPITAL ASSOCIATION OF TEXAS,
et al., Appellees
v.
Alex Michael AZAR, II, in his official
capacity, Secretary, Department of
Health and Human Services, et al.,
Appellants
No. 18-5135
United States Court of Appeals,
District of Columbia Circuit.
Argued April 9, 2019
Decided August 13, 2019
Background:
Children’s
hospitals
brought action against Department of
Health and Human Services, claiming that
rule regarding reimbursement under the
Medicaid Act violated the Administrative
Procedure Act (APA). The United States
District Court for the District of Columbia,
Emmet G. Sullivan, J., 300 F.Supp.3d 190,
entered summary judgment for hospitals.
Department appealed.
Holdings:
The Court of Appeals,
Henderson, Circuit Judge, held that:
(1) Medicaid statute granted Department
authority to promulgate rule, and
(2) rule was not arbitrary and capricious.
Reversed and remanded.

CHILDREN’S HOSP. ASSOCIATION OF TEXAS v. AZAR
Cite as 933 F.3d 764 (D.C. Cir. 2019)

1. Health O461
‘‘Medicaid’’ is a cooperative federalstate program through which the Federal
Government provides financial assistance
to States so that they may furnish medical
care to needy individuals.
See publication Words and Phrases
for other judicial constructions and
definitions.

2. Health O487(3)
A hospital serving a disproportionate
number of low-income patients cannot receive a Disproportionate Share Hospital
(DSH) payment that exceeds its costs incurred during the year of furnishing hospital services to Medicaid-eligible and uninsured individuals. Social Security Act
§ 1923, 42 U.S.C.A. § 1396r-4(g)(1)(A).
3. Health O487(3)
The Secretary of the Department of
Health and Human Services is assigned
the task of determining costs incurred by a
hospital serving a disproportionate number
of low-income patients, for purposes of the
hospital’s Disproportionate Share Hospital
(DSH) payment. Social Security Act
§ 1923, 42 U.S.C.A. § 1396r-4(g)(1)(A).
4. Health O487(3)
Payments made by Medicaid and
uninsured individuals must be subtracted
out when calculating a hospital’s costs incurred, for purposes of calculating the
maximum Disproportionate Share Hospital
(DSH) payment for a hospital serving a
disproportionate number of low-income patients. Social Security Act § 1923, 42
U.S.C.A. § 1396r-4(g)(1)(A).

765

proportionate number of low-income patients. Social Security Act § 1923, 42
U.S.C.A. § 1396r-4(g)(1)(A); 42 C.F.R.
§ 447.299(c)(10).
6. Health O464, 487(3)
Medicaid statute granted Department
of Health and Human Services authority to
promulgate rule that included payments by
Medicare and private insurers in a hospital’s costs calculation, for purposes of calculating maximum Disproportionate Share
Hospital (DSH) payment for hospital serving disproportionate number of low-income
patients, and thus rule did not violate Administrative Procedure Act (APA) as being
in excess of statutory jurisdiction; rule was
consistent with statute’s context and purpose by ensuring that DSH payments
would go to hospitals that had been compensated least and were thus most in need.
5 U.S.C.A. § 706(2)(C); Social Security Act
§ 1923, 42 U.S.C.A. § 1396r-4(g)(1)(A); 42
C.F.R. § 447.299(c)(10).
7. Administrative Law and Procedure
O2210, 2211
Under the Chevron framework, a
court asks whether the statute is ambiguous and, if so, whether the agency’s interpretation is reasonable.
8. Administrative Law and Procedure
O1175
A statute’s ambiguity constitutes an
implicit delegation from Congress to the
agency to fill in the statutory gaps.

5. Health O487(3)

9. Administrative Law and Procedure
O2210, 2211

Payments by Medicare and private insurers are to be included in calculating a
hospital’s costs incurred, for purposes of
calculating the maximum Disproportionate
Share Hospital (DSH) payment under the
Medicaid Act for a hospital serving a dis-

When a statutory delegation is express rather than implied, a court has no
need to search for statutory ambiguity under the Chevron framework; it skips
straight to asking whether the agency’s
rule is reasonable.

766

933 FEDERAL REPORTER, 3d SERIES

10. Health O487(3)
Statute, which dictates the maximum
Disproportionate Share Hospital (DSH)
payment to a single hospital serving a
disproportionate number of low-income patients, does not exclusively specify which
payments can be considered in calculating
costs incurred; the statute establishes that
payments by Medicaid and the uninsured
must be considered, but it nowhere states
that those are the only payments that may
be considered. Social Security Act § 1923,
42 U.S.C.A. § 1396r-4(g)(1)(A).
11. Statutes O1377
The interpretive canon expressio unius est exclusio alterius applies only when
circumstances support a sensible inference
that the term left out of the statute must
have been meant to be excluded.
12. Statutes O1377
The presumption that the presence of
a phrase in one provision and its absence
in another reveals Congress’ design grows
weaker with each difference in the formulation of the provisions under inspection.
13. Health O487(3)
Disproportionate
Share
Hospital
(DSH) payments, to a hospital serving a
disproportionate number of low-income patients, are meant to assist those hospitals
that need them most by covering only
those costs for which DSH hospitals are in
fact uncompensated. Social Security Act
§ 1923, 42 U.S.C.A. §§ 1396r-4(g)(1), 1396r4(j)(2)(C).
14. Statutes O1177
Statutory headings, although not commanding, supply clues about Congressional
intent.
15. Health O464, 487(3)
Department of Health and Human
Services’ rule that included payments by
Medicare and private insurers in a hospi-

tal’s costs calculation, for purposes of calculating maximum Disproportionate Share
Hospital (DSH) payment for hospital serving disproportionate number of low-income
patients, was not arbitrary and capricious,
despite contention that Department did
not justify departure from prior rule; Centers for Medicare & Medicaid Services
(CMS) explained that including payments
by Medicare and private insurers was necessary to ensure that only actual uncompensated care costs were included in the
Medicaid hospital-specific DSH limit. 5
U.S.C.A. § 706(2)(A); Social Security Act
§ 1923, 42 U.S.C.A. § 1396r-4(g)(1)(A); 42
C.F.R. § 447.299(c)(10).
16. Administrative Law and Procedure
O1293
An agency rulemaking is arbitrary
and capricious if the agency has relied on
factors that Congress has not intended it
to consider, entirely failed to consider an
important aspect of the problem, offered
an explanation for its decision that runs
counter to the evidence before the agency,
or is so implausible that it could not be
ascribed to a difference in view or the
product of agency expertise. 5 U.S.C.A.
§ 706(2)(A).
17. Administrative Law and Procedure
O1287
Agencies are free to change their existing policies as long as they provide a
reasoned explanation for the change. 5
U.S.C.A. § 706(2)(A).
18. Administrative Law and Procedure
O1287
An agency need not provide a more
detailed justification for a changed policy
than it would for a brand-new policy. 5
U.S.C.A. § 706(2)(A).
19. Administrative Law and Procedure
O1287
An agency must provide a reasoned
explanation for disregarding facts and cir-

CHILDREN’S HOSP. ASSOCIATION OF TEXAS v. AZAR
Cite as 933 F.3d 764 (D.C. Cir. 2019)

cumstances that underlay or were engendered by a prior policy. 5 U.S.C.A.
§ 706(2)(A).
20. Administrative Law and Procedure
O1287
An unexplained inconsistency with an
earlier position renders an agency’s
changed policy arbitrary and capricious. 5
U.S.C.A. § 706(2)(A).
West Codenotes
Negative Treatment Reconsidered
42 C.F.R. § 447.299(c)(10)

Appeal from the United States District
Court for the District of Columbia (No.
1:17-cv-00844)
Tara S. Morrissey, Attorney, United
States Department of Justice, argued the
cause for the appellants. Mark B. Stern
and Samantha L. Chaifetz, Attorneys,
Robert P. Charrow, General Counsel,
United States Department of Health &
Human Services, Janice L. Hoffman, Associate General Counsel, Susan M. Lyons,
Deputy Associate General Counsel, and
David L. Hoskins, Attorney, were with her
on brief.
David B. Salmons, Washington, DC, argued the cause for the appellees. Geraldine
E. Edens, Michael E. Kenneally, Washington, DC, and Susan Feigin Harris were
with him on brief. Christopher H. Marraro, Washington, DC, entered an appearance.
Daniel G. Jarcho and Michael H. Park,
Washington, DC, were on brief for the
amicus curiae Children’s Hospital Association in support of the appellees and in
support of affirmance.
Before: Henderson and Rogers, Circuit
Judges, and Sentelle, Senior Circuit Judge.

767

Karen LeCraft Henderson, Circuit
Judge
Under the Medicaid Act (Act), the federal government provides each state funds
for distribution to hospitals that serve a
disproportionate number of low-income patients. See 42 U.S.C. § 1396-1. A state
distributes the funds through Disproportionate Share Hospital (DSH) payments.
See id. § 1396r-4(b), (c). A hospital may not
receive a DSH payment that exceeds its
‘‘costs incurred’’ in furnishing hospital services to low-income patients. Id. § 1396r4(g)(1)(A). ‘‘Costs incurred’’ are, inter alia,
‘‘determined by the Secretary’’ of the United States Department of Health and Human Services (Secretary). Id. In 2017, the
Secretary promulgated a regulation defining ‘‘costs incurred.’’ Medicaid Program;
Disproportionate Share Hospital Payments–Treatment of Third Party Payers in
Calculating Uncompensated Care Costs, 82
Fed. Reg. 16,114, 16,122 (Apr. 3, 2017)
(‘‘2017 Rule’’). The plaintiffs, a group of
children’s hospitals that receive DSH payments, argue that the regulatory definition
is contrary to the Medicaid Act and otherwise arbitrary and capricious. The district
court agreed that the definition is inconsistent with the Act and vacated the 2017
Rule. Children’s Hosp. Ass’n of Tex. v.
Azar, 300 F. Supp. 3d 190 (D.D.C. 2018).
We now reverse.
I.

Background

[1–4] ‘‘Medicaid is a cooperative federal-state program through which the Federal Government provides financial assistance to States so that they may furnish
medical care to needy individuals.’’ Wilder
v. Va. Hosp. Ass’n, 496 U.S. 498, 502, 110
S.Ct. 2510, 110 L.Ed.2d 455 (1990). States
implement their own Medicaid plans, subject to the federal government’s review
and approval. See 42 U.S.C. § 1396a.
Treating the indigent proves costly even

768

933 FEDERAL REPORTER, 3d SERIES

for hospitals that receive Medicaid payments. Indeed, not all hospital services are
covered by Medicaid; not all costs associated with covered services are allowed by
Medicaid; and Medicaid does not fully reimburse hospitals for all allowable costs
associated with covered services. Recognizing this, the Congress authorizes supplemental payments (‘‘DSH payments’’) to
hospitals that serve a disproportionate
share of low-income patients (‘‘DSH hospitals’’). 42 U.S.C. § 1396a(13)(A)(iv) (requiring that Medicaid payment rates ‘‘take into
account (in a manner consistent with section 1396r-4 of this title) the situation of
hospitals which serve a disproportionate
number of low-income patients with special
needs’’); 42 U.S.C. § 1396r-4 (entitled ‘‘Adjustment in payment for inpatient hospital
services furnished by disproportionate
share hospitals’’). There is both a statespecific and a hospital-specific limit on
DSH payments. The state-specific limit—
not at issue in this case—dictates that all
DSH payments to DSH hospitals within a
single state must be drawn from the same
pool of federal funds. See 42 U.S.C.
§ 1396r-4(f). The hospital-specific limit,
which is at issue in this case, dictates that
a DSH payment to a single hospital cannot
exceed:
[T]he costs incurred during the year of
furnishing hospital services (as determined by the Secretary and net of payments under this subchapter, other than
under this section, and by uninsured
patients) by the hospital to individuals
who either are eligible for medical assistance under the State plan or have no
health insurance (or other source of
third party coverage) for services provided during the year.
42 U.S.C. § 1396r-4(g)(1)(A). This sentence—although not the picture of clarity—establishes a few matters clearly. A
DSH hospital cannot receive a DSH payment that exceeds its ‘‘costs incurred dur-

ing the year of furnishing hospital services’’ to Medicaid-eligible and uninsured
individuals. The Secretary is assigned the
task of determining ‘‘costs incurred.’’ And
‘‘costs incurred’’ are ‘‘net of payments under this subchapter, other than under this
section, and by uninsured patients’’; in other words, payments made by Medicaid and
uninsured individuals must be subtracted
out when calculating a hospital’s ‘‘costs
incurred.’’ The dispute here is about
whether payments made by Medicare and
private insurers should also be subtracted
out.
In 2003, the Congress enacted legislation requiring states to submit annual reports and independent certified audits regarding their DSH programs. See 42
U.S.C. § 1396r-4(j). The reports must identify which hospitals receive DSH payments
and the audits must verify that the DSH
payments comply with the statutory requirements. Id.
In 2008, the Centers for Medicare &
Medicaid Services (CMS), using the authority delegated it by the Secretary, promulgated a regulation implementing the
reporting and auditing requirements. Medicaid Program; Disproportionate Share
Hospital Payments, 73 Fed. Reg. 77,904
(Dec. 19, 2008) (‘‘2008 Rule’’). The 2008
Rule provided that each state must report
to CMS the cost of each DSH hospital’s
‘‘Total Medicaid Uncompensated Care.’’ Id.
at 77,950 (codified at 42 C.F.R.
§ 447.299(c)(11)). The 2008 Rule did not
state whether third-party payments, including payments by Medicare and private
insurers, were meant to be included in
calculating the amount. See id. Three
courts of appeals concluded from this silence that the 2008 Rule left uncertain
whether these payments should be considered. See Children’s Health Care v. Ctrs.
for Medicare & Medicaid Servs., 900 F.3d
1022, 1025 (8th Cir. 2018); Children’s

CHILDREN’S HOSP. ASSOCIATION OF TEXAS v. AZAR
Cite as 933 F.3d 764 (D.C. Cir. 2019)

Hosp. of the King’s Daughters, Inc. v.
Azar, 896 F.3d 615, 621 (4th Cir. 2018);
N.H. Hosp. Ass’n v. Azar, 887 F.3d 62, 75
(1st Cir. 2018). One court of appeals concluded that the 2008 Rule made clear that
these payments should not be considered.
See Tenn. Hosp. Ass’n v. Azar, 908 F.3d
1029, 1043–44 (6th Cir. 2018).
[5] In 2010, CMS posted a Frequently
Asked Questions document on its website
clarifying that payments made by Medicare and private insurers should be included. See CMS, Additional Information on
the DSH Reporting and Audit Requirements, FAQs 33 and 34 (2010), https://
www.medicaid.gov/medicaid/finance/
downloads/part-1-additional-info-on-dshreporting-and-auditing.pdf. A number of
hospitals brought suit, arguing that the
FAQs posting was invalid because it represented a substantive policy change without
notice and an opportunity for public comment. In response, CMS issued a notice of
proposed rulemaking and subsequently
promulgated the 2017 Rule. The 2017 Rule
establishes that payments by Medicare
and private insurers are to be included in
calculating a hospital’s ‘‘costs incurred.’’ 82
Fed. Reg. at 16,122 (codified at 42 C.F.R.
§ 447.299(c)(10)). It provides, inter alia,
‘‘costs TTT [a]re defined as costs net of
third-party payments, including, but not
limited to, payments by Medicare and private insurance.’’ Id. The Secretary explains that considering payments by Medicare and private insurers ‘‘best fulfills the
purpose of the DSH statute,’’ is ‘‘necessary
to ensure that limited DSH resources are
allocated to hospitals that have a net financial shortfall in serving Medicaid patients’’
and ‘‘is necessary to facilitate the Congressional directive TTT of limiting the DSH
payment to a hospital’s uncompensated
care costs.’’ Id. at 16,116, 16,118. He maintains that the 2017 Rule did not effect a

769

legal change but instead continued the
preexisting policy. Id. at 16,119.
The plaintiffs are four children’s hospitals in Minnesota, Virginia and Washington and an association representing eight
children’s hospitals in Texas. They claim
the 2017 Rule violates the Administrative
Procedure Act because it exceeds the Secretary’s authority under the Medicaid Act
and is the product of arbitrary and capricious reasoning. See 5 U.S.C. § 706(2)(A),
(C). The district court entered summary
judgment for the plaintiffs, holding that
the Rule ‘‘is inconsistent with the plain
language of the Medicaid Act,’’ which
‘‘clearly indicates which payments can be
subtracted from the total costs incurred
during the year by hospitals’’ and ‘‘nowhere mentions subtracting other thirdparty payments made on behalf of Medicaid-eligible patients from the total costs
incurred.’’ Children’s Hosp. Ass’n of Tex.,
300 F. Supp. 3d at 205, 207. Having held
the 2017 Rule invalid under § 706(2)(C)
(‘‘ultra vires’’ prohibition), the district
court did not reach the plaintiffs’
§ 706(2)(A) challenge (‘‘arbitrary and capricious’’ prohibition). Id. at 205. The district court ultimately vacated the 2017
Rule and the Secretary timely appealed.
Id. at 210–11. Our review is de novo. See
Ark Initiative v. Tidwell, 816 F.3d 119,
126–27 (D.C. Cir. 2016).
II.
A.

Analysis

Exceeds Statutory Authority

[6–9] The plaintiffs first challenge the
Rule as exceeding the Secretary’s authority under the Medicaid Act, in violation of 5
U.S.C. § 706(2)(C). The familiar Chevron
framework guides our review. See Ass’n of
Private Sector Colls. & Univs. v. Duncan,
681 F.3d 427, 441 (D.C. Cir. 2012) (‘‘Appellant’s claims that various provisions of the
challenged regulations are ‘in excess of
statutory jurisdiction, authority, or limita-

770

933 FEDERAL REPORTER, 3d SERIES

tions, or short of statutory right,’ are reviewed under the well-known Chevron
framework.’’ (citation omitted) (quoting 5
U.S.C. § 706(2)(C))). ‘‘Under that framework, we ask whether the statute is ambiguous and, if so, whether the agency’s interpretation is reasonable.’’ King v. Burwell,
––– U.S. ––––, 135 S. Ct. 2480, 2488, 192
L.Ed.2d 483 (2015). ‘‘This approach ‘is
premised on the theory that a statute’s
ambiguity constitutes an implicit delegation from Congress to the agency to fill in
the statutory gaps.’ ’’ Id. (quoting FDA v.
Brown & Williamson Tobacco Corp., 529
U.S. 120, 159, 120 S.Ct. 1291, 146 L.Ed.2d
121 (2000)). Because the delegation at issue here is express rather than implied,
see 42 U.S.C. § 1396r-4(g)(1)(A) (‘‘[T]he
costs incurred during the year of furnishing hospital services (as determined by the
Secretary TTT) TTTT’’ (emphasis added));
see also Transitional Hosps. Corp. of La.
v. Shalala, 222 F.3d 1019, 1025 (D.C. Cir.
2000) (‘‘as determined by the Secretary’’ is
‘‘express delegation’’), we have no need to
search for statutory ambiguity. We skip
straight to asking whether the Rule is
reasonable. See Chevron, U.S.A., Inc. v.
Nat. Res. Def. Council, Inc., 467 U.S. 837,
843–44, 104 S.Ct. 2778, 81 L.Ed.2d 694
(1984) (‘‘If Congress has explicitly left a
gap for the agency to fill, there is an
express delegation of authority to the
agency to elucidate a specific provision of
the statute by regulation. Such legislative
regulations are given controlling weight
unless they are arbitrary, capricious, or
manifestly contrary to the statute.’’); see
also Transitional Hosps. Corp. of La., 222
F.3d at 1025 (if delegation is express ‘‘we
are bound to uphold [the Secretary’s] determination as long as she exercises [her]
discretion in a reasonable way’’).
The plaintiffs offer four principal reasons the statute does not grant the Secre1.

We have also considered and reject the

tary authority to require that payments by
Medicare and private insurers be considered in calculating a hospital’s ‘‘costs incurred.’’ First, the statute exclusively specifies which payments can be considered.
Second, the Rule renders superfluous the
statute’s specification that certain payments must be considered. Third, the Congress required consideration of third-party
payments in a different statutory provision
but not in the relevant provision. Fourth,
the statute plainly distinguishes costs and
payments. We reject all four arguments.1
[10, 11] First, we disagree with the
plaintiffs’ argument that the statute exclusively specifies which payments can be
considered in calculating ‘‘costs incurred.’’
See Plaintiffs’ Br. at 58; Children’s Hosp.
Ass’n of Tex., 300 F. Supp. 3d at 207 (‘‘On
its face, the statute clearly indicates which
payments can be subtracted from the total
costs incurred during the year by hospitals: (1) ‘payments under this subchapter,’
i.e., payments made by Medicaid; and (2)
payments made by uninsured patients. The
statute nowhere mentions subtracting other third-party payments made on behalf of
Medicaid-eligible patients from the total
costs incurred.’’). Although the statute establishes that payments by Medicaid and
the uninsured must be considered, it nowhere states that those are the only payments that may be considered. To conclude otherwise, we would have to rely on
the interpretive canon expressio unius est
exclusio alterius, which means ‘‘expressing
one item of [an] associated group or series
excludes another left unmentioned.’’ Chevron U.S.A. Inc. v. Echazabal, 536 U.S. 73,
80, 122 S.Ct. 2045, 153 L.Ed.2d 82 (2002)
(alteration in original) (quoting United
States v. Vonn, 535 U.S. 55, 65, 122 S.Ct.
1043, 152 L.Ed.2d 90 (2002)). But that
canon has been called a ‘‘feeble helper in
plaintiffs’ other arguments.

CHILDREN’S HOSP. ASSOCIATION OF TEXAS v. AZAR
Cite as 933 F.3d 764 (D.C. Cir. 2019)

an administrative setting.’’ Adirondack
Med. Ctr. v. Sebelius, 740 F.3d 692, 697
(D.C. Cir. 2014) (quoting Cheney R. Co. v.
ICC, 902 F.2d 66, 69 (C.A.D.C. 1990)). And,
in any setting, it ‘‘applies only when ‘circumstances support[ ] a sensible inference
that the term left out must have been
meant to be excluded.’ ’’ N.L.R.B. v. SW
Gen., Inc., ––– U.S. ––––, 137 S. Ct. 929,
940, 197 L.Ed.2d 263 (2017) (quoting Echazabal, 536 U.S. at 81, 122 S.Ct. 2045); see
also Barnhart v. Peabody Coal Co., 537
U.S. 149, 168, 123 S.Ct. 748, 154 L.Ed.2d
653 (2003) (‘‘[W]e do not read the enumeration of one TTT to exclude the other unless it is fair to suppose that Congress
considered the unnamed possibility and
meant to say no to it.’’). There is reason to
believe the Congress did not intend to
exclude Medicare and private insurance
payments from consideration. Indeed, the
parties agree that the most common
sources of payment for treating Medicaideligible and uninsured individuals are Medicaid and the uninsured. The Congress
may have wanted to ensure that the most
common sources of payment must be considered but at the same time allow the
Secretary to decide whether less-common
sources of payment should be as well. Especially in light of this plausible alternative
explanation, we will not rely on the expressio unius canon to find that the statute
exclusively specifies which payments can
be considered in calculating ‘‘costs incurred.’’ See Indep. Ins. Agents of Am.,
Inc. v. Hawke, 211 F.3d 638, 644 (D.C. Cir.
2000) (‘‘[I]f there are other reasonable explanations for an omission in a statute,
expressio unius may not be a useful
tool.’’).
Second, we disagree with the plaintiffs’
argument that the Rule renders superfluous the statute’s specification that payments by Medicaid and the uninsured
must be considered. See Plaintiffs’ Br. 41–
42; Children’s Hosp. Ass’n of Tex., 300 F.

771

Supp. 3d at 207 (‘‘To allow the Secretary to
redefine ‘costs’ to net out a third category
of payments—i.e., ‘third-party payments,
including but not limited to, payments by
Medicare and private insurance’ TTT—
would ‘render the Congressional definition
of payments in the very same clause superfluous.’ ’’ (quoting Children’s Hosp. of
the King’s Daughters, Inc. v. Price, 258 F.
Supp. 3d 672, 687 (E.D. Va. 2017))); id.
(‘‘[D]efendants’ interpretation of the statute would render portions of the statutory
language superfluous.’’). The statute’s
specification that two forms of payment
must be considered removes the Secretary’s discretion as to those two forms of
payment. But it does nothing to disturb
the Secretary’s discretion as to other
forms of payment, which may be considered. See Tenn. Hosp. Ass’n, 908 F.3d at
1038 (‘‘[T]he fact that certain payments
must be deducted from costs does not
mean that other payments cannot be.’’);
N.H. Hosp. Ass’n, 887 F.3d at 66 (‘‘Congress identified two specific sources of
payment that must be offset against total
costs, but otherwise simply stated that
‘costs incurred’ are ‘as determined by the
Secretary.’ ’’).
[12] Third, we reject the plaintiffs’ argument that we should infer from the Congress’s requiring consideration of third
party payments under 42 U.S.C. § 1396r4(g)(2)(A)—a provision that, before 1995,
allowed certain hospitals to receive payments that exceeded their uncompensated
costs—that it meant to prohibit consideration of third party payments under
§ 1396r-4(g)(1)(A). Plaintiffs’ Br. 34–35.
This argument is based on the so-called
‘‘Russello presumption—that the presence
of a phrase in one provision and its absence in another reveals Congress’ design.’’ City of Columbus v. Ours Garage &
Wrecker Serv., Inc., 536 U.S. 424, 435–36,
122 S.Ct. 2226, 153 L.Ed.2d 430 (2002)

772

933 FEDERAL REPORTER, 3d SERIES

(citing Russello v. United States, 464 U.S.
16, 104 S.Ct. 296, 78 L.Ed.2d 17 (1983)).
But that presumption ‘‘grows weaker with
each difference in the formulation of the
provisions under inspection.’’ Id. at 436,
122 S.Ct. 2226. Because sections (g)(1)(A)
and (g)(2)(A) are fundamentally different,
we find the plaintiffs’ argument unpersuasive. See Tenn. Hosp. Ass’n, 908 F.3d at
1039 (‘‘There is no tension, however, in
Congress requiring third-party payment
deductions in subsection (g)(2)(A) and allowing third-party payment deductions in
subsection (g)(1)(A). The DSH payments
provided for in (g)(2)(A) are above and
beyond those mandated by (g)(1)(A); it
therefore makes sense for Congress to
impose a hard limit on the ceiling of
(g)(2)(A) funds—i.e., no more than 200% of
the costs of serving Medicaid-eligible patients, less payments from Medicaid, uninsured patients, and ‘third party payors’—
while giving CMS more discretion to calibrate the appropriate cap on the ‘standard’
DSH payments discussed in (g)(1)(A).’’).
Fourth, we disagree with the plaintiffs’
argument that the statute plainly distinguishes between costs and payments such
that payments can never be considered in
calculating ‘‘costs incurred.’’ See Plaintiffs’
Br. at 26, 30, 33, 40, 57. The statute establishes that a hospital’s DSH payment cannot exceed its ‘‘costs incurred during the
year of furnishing hospital services (as determined by the Secretary and net of payments under this subchapter, other than
under this section, and by uninsured patients).’’ 42 U.S.C. § 1396r-4(g)(1)(A). Both
of the parenthetical’s adjoining phrases
modify ‘‘costs incurred’’—that is, ‘‘costs incurred’’ are both ‘‘as determined by the
Secretary’’ and ‘‘net of payments under
[Medicaid] and by uninsured patients.’’ Id.
In other words, the statute requires that
2.

Headings, although ‘‘not commanding,’’
‘‘supply clues’’ about Congressional intent.

some payments be considered in calculating a hospital’s ‘‘costs incurred.’’ The argument that the statute separates costs and
payments therefore flies in the teeth of the
statutory text.
[13, 14] Contrary to the plaintiffs’
contention, we believe the 2017 Rule is
consistent with the statute’s context and
purpose, both of which suggest DSH payments are meant to assist those hospitals
that need them most by covering only
those costs for which DSH hospitals are
in fact uncompensated. See 42 U.S.C.
§ 1396r-4(g)(1) (heading of provision at
issue: ‘‘Amount of adjustment subject to
uncompensated
costs’’);2
42
U.S.C.
§ 1396r-4(j)(2)(C) (requiring states to certify that ‘‘[o]nly the uncompensated care
costs of providing inpatient hospital and
outpatient hospital services to individuals
described in [ (g)(1)(A) ] are included in
the calculation of the hospital-specific limits.’’); H.R. Rep. No. 103-111, at 211 (in
enacting DSH payment limit, Congress
noted ‘‘some States have made DSH payment[s] TTT to State psychiatric or university hospitals in amounts that exceed
the net costs, and in some instances the
total costs, of operating the facilities’’);
Tenn. Hosp. Ass’n, 908 F.3d at 1040 (‘‘essence’’ of Congressional concern in enacting statute was ‘‘that hospitals were double dipping by collecting DSH payments
to cover costs that had already been reimbursed’’). By requiring the inclusion of
payments by Medicare and private insurers, the 2017 Rule ensures that DSH
payments will go to hospitals that have
been compensated least and are thus
most in need. Because the 2017 Rule is
consistent with the statute, it does not
violate § 706(2)(C).
Yates v. United States, 574 U.S. 528, 135 S. Ct.
1074, 1083, 191 L.Ed.2d 64 (2015).

CHILDREN’S HOSP. ASSOCIATION OF TEXAS v. AZAR
Cite as 933 F.3d 764 (D.C. Cir. 2019)

B.

Arbitrary and Capricious

[15, 16] The plaintiffs next challenge
the 2017 Rule as the product of arbitrary
and capricious reasoning, in violation of 5
U.S.C. § 706(2)(A). A reviewing court
‘‘shall TTT hold unlawful and set aside
agency action, findings, and conclusions
found to be TTT arbitrary, capricious, an
abuse of discretion, or otherwise not in
accordance with law.’’ 5 U.S.C. § 706(2)(A).
An agency rulemaking is arbitrary and
capricious ‘‘if the agency has relied on
factors which Congress has not intended it
to consider, entirely failed to consider an
important aspect of the problem, offered
an explanation for its decision that runs
counter to the evidence before the agency,
or is so implausible that it could not be
ascribed to a difference in view or the
product of agency expertise.’’ Motor Vehicle Mfrs. Ass’n of U.S. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43, 103 S.Ct.
2856, 77 L.Ed.2d 443 (1983).
[17–20] The plaintiffs first contend
that ‘‘CMS has never acknowledged, let
alone justified, its new Rule’s departure
from the 2008 rule.’’ Plaintiffs’ Br. 27–28.
We disagree. ‘‘Agencies are free to change
their existing policies as long as they provide a reasoned explanation for the
change.’’ Encino Motorcars, LLC v. Navarro, ––– U.S. ––––, 136 S. Ct. 2117, 2125,
195 L.Ed.2d 382 (2016). An agency need
not provide a more detailed justification
for a changed policy than it would for a
brand-new policy. Id. But it must provide
3.

The Secretary maintains that the 2017 Rule
is consistent with the 2008 Rule and so does
not establish a new policy. That argument has
been rejected by four courts of appeals, all of
which found the 2010 FAQs procedurally invalid because the policy established therein,
which is the same policy established by the
2017 Rule, marked a departure from the policy established by the 2008 Rule without notice and an opportunity for public comment.
See Tenn. Hosp. Ass’n, 908 F.3d at 1043 (‘‘As

773

‘‘a reasoned explanation TTT for disregarding facts and circumstances that underlay
or were engendered by the prior policy.’’
Id. at 2126 (quoting F.C.C. v. Fox Television Stations, Inc., 556 U.S. 502, 516, 129
S.Ct. 1800, 173 L.Ed.2d 738 (2009)). An
‘‘unexplained inconsistency’’ with an earlier
position renders a changed policy arbitrary
and capricious. Id. (quoting Nat. Cable &
Telecomm. Ass’n v. Brand X Internet
Servs., 545 U.S. 967, 981, 125 S.Ct. 2688,
162 L.Ed.2d 820 (2005)).
There is no unexplained inconsistency
with an earlier position here. To be clear,
we agree with the plaintiffs that the 2017
Rule and the 2008 Rule establish different
policies.3 But it makes no difference. CMS
explained why the statute’s purposes are
better fulfilled by a policy that requires
consideration of payments by Medicare
and private insurers (the 2017 Rule) than
one that does not (the 2008 Rule, as we
interpret it):
In light of the statutory requirement
limiting DSH payments on a hospitalspecific basis to uncompensated care
costs, it is inconsistent with the statute
to assist hospitals with costs that have
already been compensated by third party payments. [The 2017] rule is designed
to reiterate the policy and make explicit
within the terms of the regulation that
all costs and payments associated with
dual eligible and individuals with a
source of third party coverage must be
included in calculating the hospital-specific DSH limit. This policy is necessary
three circuit courts and several district courts
have now held, the payment-deduction policy
elucidated in the FAQs and hinted at in the
preamble to the 2008 rule seeks to amend,
rather than merely clarify, the 2008 regulations.’’ (citing Children’s Health Care, 900
F.3d at 1026–27; Children’s Hosp. of the
King’s Daughters, 896 F.3d at 623; N.H. Hosp.
Ass’n, 887 F.3d at 74)). We agree with our
sister circuits.

774

933 FEDERAL REPORTER, 3d SERIES

to ensure that only actual uncompensated care costs are included in the Medicaid hospital-specific DSH limit. And, because state DSH payments are limited
to an annual federal allotment, this policy is also necessary to ensure that limited DSH resources are allocated to hospitals that have a net financial shortfall
in serving Medicaid patients.
82 Fed. Reg. at 16,117. This explanation is
more than sufficient to survive review under § 706(2)(A).
The plaintiffs also claim that the Secretary has not tied the 2017 Rule to the
administrative record. According to their
reading, the record shows that CMS reduces DSH payments to the plaintiff hospitals when it considers private insurance
payments, notwithstanding ‘‘they have
among the highest Medicaid inpatient utilization rates in their respective states and
the highest net financial shortfalls in serving Medicaid patients.’’ Plaintiffs Br. 65.
The plaintiffs claim this outcome is inconsistent with the purpose of the 2017 Rule,
which is ‘‘to ensure that limited DSH resources are allocated to hospitals that have
a net financial shortfall in serving Medicaid patients.’’ 82 Fed. Reg. at 16,117.
Their argument is doubly flawed. For
starters, ‘‘Medicaid inpatient utilization
rates’’ are not mentioned in § 1396r4(g)(1)(A). See 42 U.S.C. § 1396r4(g)(1)(A). More importantly, the plaintiffs
misstate which hospitals suffer a ‘‘net financial shortfall.’’ Programs and services a
hospital provides that are not paid for by
Medicaid are not relevant to the shortfall
calculation. See 42 U.S.C. § 1396r-4(j)(2)(C)
(‘‘Only the uncompensated care costs of
providing inpatient hospital and outpatient
hospital services to individuals described in
paragraph [ (g)(1)(A) ] are included in the
calculation of the hospital-specific limits
under such subsection.’’). Indeed, the statute does not consider a hospital’s actual

costs; it considers only those costs that
Medicaid pays for. See 82 Fed. Reg. at
16,118 (‘‘Ancillary programs and services
that hospitals provide to patients may be
laudable, but they are not paid for by
Medicaid because they are not costs associated with furnishing inpatient and outpatient hospital services.’’). Calculating ‘‘net
financial shortfall’’ using only those costs
that Medicaid pays for, no hospital that
suffers a ‘‘net financial shortfall’’ will be
denied a DSH payment. Thus, we disagree
with the plaintiffs’ argument that the Secretary has failed to tie the Rule to the
record. Like their § 706(2)(C) challenge,
their § 706(2)(A) challenge fails.
For the foregoing reasons, we reverse
the judgment of the district court, reinstate the 2017 Rule and remand the case
for further proceedings consistent with
this opinion.
So ordered.

,
Hamed Sufyan Othman ALMAQRAMI,
et al., Appellants
v.
Michael R. POMPEO, in His Official
Capacity as Secretary of State and
John Does, #1-#50, In Their Official
Capacity as the Consular Officials Responsible for Issuing Diversity Visas,
Appellees
No. 18-5156
United States Court of Appeals,
District of Columbia Circuit.
Argued December 14, 2018
Decided August 13, 2019
Background: Aliens brought action challenging the government’s denial of their

